No. 21-231
In the

Supreme Court of the United States
JULIE ELLEN WARTLUFT,

F/K/A JULIE ELLEN BARTELS; AND

FREDERICK L. BARTELS, JR., AS
ADMINISTRATORS OF THE ESTATE OF
ABRIELLE KIRA BARTELS, DECEASED,
v.

Petitioners,

THE MILTION HERSHEY SCHOOL; AND
THE HERSHEY TRUST COMPANY, AS
TRUSTEE OF THE MILTON HERSHEY
SCHOOL TRUST.,

Respondents.

_____________________________
ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE THIRD CIRCUIT
_____________________________

MOTION FOR LEAVE TO FILE AND
BRIEF OF PROTECT THE HERSHEYS’ CHILDREN, INC., AS
AMICUS CURIAE IN SUPPORT OF PETITIONER
_______________________________

Joseph H. Jones, Jr.
Counsel of Record
WILLIAMSON, FRIEDBERG &
JONES, LLC
Ten Westwood Road
Pottsville, PA 1790
Tel: 570-622-5933
jjonesjr@wfjlaw.net
GibsonMoore Appellate Services, LLC
206 East Cary Street♦ Richmond, VA 23219
804-249-7770 ♦
www.gibsonmoore.net

i
MOTION FOR LEAVE TO
FILE AMICUS BRIEF
Under Supreme Court Rule 37.2(b), Amicus Curiae
Protect The Hersheys’ Children, Inc. (“PHC”)
requests leave to file the following brief in support of
Petitioners in this case. In support of this motion,
Amicus shows the following:
1. Amicus PHC is a nonprofit organization that
advocates for needy children in the care of
Respondents The Milton Hershey School, et al.
(“MHS”). Amicus is comprised of MHS alumni
and endeavors to protect MHS children based on
shared understanding of their circumstances and
long advocacy on their behalf. The interest of the
Amicus is also stated in the attached brief.
2. The question presented by this case is whether
MHS children providing labor as part of MHS’s
chore program supplies “consideration” within
the meaning of the Fair Housing Act (“FHA”).
Although this question focuses on the history of
MHS’s chore program, affects all current and
future MHS students, and turns on explication,
in important part, of the genesis of that chore
program, no one with relevant understanding of
this question with PHC’s depth is party to this
case.
3. Amicus PHC wishes to submit this brief because
it advocates for the children most affected by this
question and because PHC possesses a unique
understanding of these issues that it believes will
help the Court’s analysis.
4. Amicus PHC, as a small nonprofit unfamiliar
with the Court’s rules, was tardy in retaining

ii
counsel and requesting consent of parties to its
filing. Nonetheless, such consent was requested
and received of Petitioner the day before filing
(September 15, 2021). The same request was
made of Respondents but consent was denied by
them on the same day.
For all of these reasons, Amicus respectfully
requests leave to file the enclosed amicus curiae
brief in support of the Petitioners in this case.
Respectfully submitted,
WILLIAMSON, FRIEDBERG & JONES, LLC
/S/ Joseph H. Jones, Jr.
JOSEPH H. JONES, JR.
Ten Westwood Road
Pottsville, PA 1790
Tel: 570-622-5933
jjonesjr@wfjlaw.net
Attorneys for Amicus Curiae Protect The Hersheys’
Children, Inc.

iii
CORPORATE DISCLOSURE STATEMENT
Pursuant to this Court’s Rule 29.6, amicus
Protect The Hersheys’ Children, Inc. states as
follows:
Protect The Hersheys’ Children, Inc., as a
nonprofit entity, has no parent corporation and no
publicly held company owns 10% or more of its stock.
Thus, this rule is inapplicable.

iv

TABLE OF CONTENTS
Page
MOTION FOR LEAVE TO
FILE AMICUS BRIEF .............................................. i
CORPORATE DISCLOSURE STATEMENT ........ iii
TABLE OF CONTENTS ......................................... iv
TABLE OF AUTHORITIES..................................... v
INTEREST OF AMICUS CURIAE ......................... 1
INTRODUCTION AND
SUMMARY OF ARGUMENT ............................ 2
ARGUMENT ............................................................ 2
I. MHS founders Milton & Catherine
Hershey built a children’s home model
that eschewed treating children as
objects of charity ............................................ 2
II. MHS children are disproportionately
harmed by the decision below ....................... 6
CONCLUSION ......................................................... 8

v
TABLE OF AUTHORITIES
Page(s)
Cases
Wartluft v. Milton Hershey School and
School Trust,
844 Fed.Appx. 499 (C.A.3 (Pa.), 2021) ........... 5, 6
Statutes
Americans with Disabilities Act .............................. 7
Federal Housing Act ............................................ 6, 7
Other Authorities
D’Antonio, Michael, Milton S. Hershey’s
Extraordinary Life of Wealth, Empire and
Utopian Dreams
New York: Simon & Schuster, 2006 ................... 2
Fernandez, Bob, The Chocolate Trust:
Deception, Indenture and Secrets at the $12
Billion Milton Hershey School
Philadelphia, Camino Books, Inc., 2015 ............ 3

1
INTEREST OF AMICUS CURIAE 1
Protect The Hersheys’ Children, Inc. (“PHC”) is a
Pennsylvania nonprofit corporation formed by
alumni of the Milton Hershey School (“MHS”). PHC
is dedicated to protecting children cared for by MHS
and advocating on their behalf. PHC works for MHS
governance and program reform and is the only
organization uniquely devoted to such.

This brief was prepared by counsel for the amicus curiae and
not by counsel for any party. No outside contributions were
made to the preparation or submission of this brief. As
explained more fully in the accompanying Motion for Leave to
File Amicus Brief, PHC — a small nonprofit unfamiliar with
the Court’s rules — was tardy in retaining counsel and seeking
consent to the filing of this brief. Nonetheless, Petitioner has
given consent to the filing while Respondents have withheld
consent.
1

2

INTRODUCTION AND
SUMMARY OF ARGUMENT
The decision below misapprehends the nature of
the chore program at issue in this proceeding. That
chore program is solidly rooted in the ethos of Milton
& Catherine Hershey, the founders of the Milton
Hershey School (“MHS”). The Hersheys sought to
imbibe in children a respect for the dignity of labor
and its corollary, the self-respect that comes from
earning one’s keep. Thus, MHS children were never
treated as objects of charity nor burdened with its
stigma. The decision below erroneously suggests
otherwise and, on that basis, reaches mistaken legal
conclusions. These conclusions are especially
harmful here because they strip vital protections
from children who need them most.
ARGUMENT
I. MHS founders Milton & Catherine Hershey
built a children’s home model that
eschewed treating children as objects of
charity.
MHS was established as an orphanage in 1909 by
Milton & Catherine Hershey. It was then called the
Hershey Industrial School and served only “white
male orphans.” 2 While the facility has evolved over
time to enroll minority children and girls and to
change its name to MHS, its core mission remains
serving children who require residential care.

See, generally, D’Antonio, Michael, Milton S. Hershey’s
Extraordinary Life of Wealth, Empire and Utopian Dreams,
New York: Simon & Schuster, 2006.
2

3
Another MHS feature that remains unchanged is
the centrality of the chore program. Beginning with
the earliest MHS students, those cared for by MHS
undertook labor as a condition of enrollment. While
MHS students once worked on farms milking cows
and in fields, this chore program also evolved over
time.
Nonetheless, rooted in the philosophy of Milton S.
Hershey and his abiding respect for the dignity of
work, the MHS chore program has been a constant:
no student has been permitted to remain at MHS
unless he or she agreed to perform chores.
This agreement is expressly reflected in the MHS
founding charter — its Deed of Trust — and related
enrollment documents, as amended over time.
Specifically, the original Deed of Trust included
provisions requiring that students be “indentured”
— a formal relationship established between the
student and MHS and that contemplated student
labor. 3 A corresponding indenture agreement was
executed between MHS and the child’s parent (or
sponsor if no living parent were available). 4
As the Deed of Trust was subsequently amended,
the term “indenturing” was deleted but commitment
to the chore program remained. 5
See, Fernandez, Bob, The Chocolate Trust: Deception,
Indenture and Secrets at the $12 Billion Milton Hershey School,
Philadelphia, Camino Books, Inc., 2015.
4 An online copy of the original Hershey Industrial School Deed
of Trust is hosted on Protect The Hersheys’ Children, Inc.’s
website. A copy of the original Form of Indenture is also there.
The Amended (1950) Form of Indenture can also be found there.
5 MHS eliminated references to indenturing in the Deed of
Trust in 1970. Fernandez op cit., 27.
3

4
The indenturing agreement also went away:
today, parents (or sponsors) of children seeking
enrollment execute an Enrollment Agreement that
also binds children to comply with the obligation to
perform chores.
Thus, so far as student agreement to perform
work is concerned, there are parallel regimes
(indenturing/indenturing agreement and modern
enrollment/Enrollment Agreement) connecting MHS
from past to present.
Leaving aside the pedagogical benefits of having
MHS youths undertake daily labor — and amicus
Protect The Hersheys’ Children, Inc. (“PHC”) is of
the view that its benefits abound — for purposes of
this proceeding, PHC would note the mandatory
nature of the MHS chore program because of its
legal significance: to the extent that any question
turns on whether MHS students are required to
perform chores as a condition of remaining in MHS
group homes, eating MHS food, attending MHS
classes, receiving MHS medical care, and otherwise
being part of the MHS institutional family — as all
associated with PHC are — there is no merit to any
argument that MHS students could decline to
perform chores and remain at the facility.
While it is true that if a student were physically
incapable of performing chores they would be
excused from them — as happens, for instance, if a
child suffers a fracture or gets sick — this is not
because chores are not mandatory: it is because
physical limitations are and always have been
recognized in implementing the chore program; e.g.,
students whose allergies prevented them from
working with hay were excused from barn chores.

5
Instead, they washed dishes or cleaned the MHS
group homes.
Such children were not, however, permanently
excused from chores; and even a student with a
broken limb would be required to perform a chore of
which they remained capable.
The notion that a malingerer could remain at
MHS or otherwise refuse to perform chores
contravenes the ethos of what Milton & Catherine
Hershey wanted: a major MHS feature was avoiding
making children feel like objects of charity, as other
institutions did. Instead, MHS invests in students a
sense of dignity and the self-respect of knowing that
MHS graduates earned their places.
It follows that the fatal flaw in the decision below
is the suggestion that: “Here, by contrast, Abbie
provided no consideration for her housing. Though
the School made her do chores, the chores did not
help Abbie get housing and were not part of a
bargain. […] The School housed Abbie out of charity.
Wartluft v. Milton Hershey School and School Trust,
844 Fed.Appx. 499, 503 (C.A.3 (Pa.), 2021)
(Emphasis added.)
That misapprehends the bargain at the heart of
the MHS-student relationship — which is
manifested in an Enrollment Agreement that
conditions enrollment on performance of chores —
and the fundamental tenets of MHS as can be traced
historically from its founding to this day. Such a
construction also turns MHS children into the very
objects of charity that the benevolent Hersheys
sought to avoid and that is stigmatizing to such
children. It has no support in the history of the

6
Hershey model. It is, respectfully speaking, offensive
in that it beggars such children.
Indeed, the District Court, in rendering the
original decision at issue here, went so far as to cite
at length a case analogizing MHS children to
“tramps” who could be made to perform chores
without any expectation of receiving something in
return. Wartluft v. Milton Hershey School and
School Trust, 844 Fed.Appx. 499, 503 (C.A.3 (Pa.),
2021) Such a construction would have profoundly
troubled the MHS founders. The decision below
mistakenly embraced it.
On that basis, the decision below then adds legal
injury to insult: it concludes that MHS children —
who are now reduced to mere objects of charity (or
“tramps”) — are thereby also excluded from the
protections of the Federal Housing Act (the “FHA”).
As the decision below stated, “That free studenthousing model falls outside the Act.” Id.
The decision below is certainly wrong in its
factual premise of “free housing.” It follows that its
legal conclusions are also in error.
II. MHS
children
are
disproportionately
harmed by the decision below.
While MHS has rescued children from crisis and
poverty for 110 years, these children often face
special burdens requiring accommodation. In a
November 2, 2016 article in the Philadelphia
Inquirer, MHS spokeswoman Lisa Scullin noted
that: “[MHS] estimates that 60-70% of its student
body has one or more physical or psychological
impairments that may meet the ADA’s definition of

7
a disability. Many of these are attributable to the
backgrounds of poverty and need.”
In other words, MHS children represent a class
who need more — not less — federal law protection.
Yet, the decision below also stands this upside down,
stripping these children of federal protections they
would otherwise be afforded.
PHC would respectfully point out that by
stripping MHS children of these federal protections,
the decision below facilitates MHS expelling such
children more and more frequently. This not only
contravenes the purpose of the FHA, it derogates
from the benevolent wishes of MHS founders Milton
& Catherine Hershey.
In a similar manner, MHS had a policy of
denying enrollment to children who were HIVpositive until 2012. One of these children filed a
federal lawsuit invoking the Americans with
Disabilities Act (the “ADA”). PHC was publicly
supportive of the child in that case and urged MHS
to rethink its policy, with the precepts of the MHS
founders in mind. Ultimately, the Department of
Justice intervened and MHS was compelled to pay a
large fine and agree to commit no further ADA
violations. 6
That background teaches that MHS children are
particularly in need of federal law protection and
that such protections will ultimately guide MHS in
better fulfilling its mission. Indeed, PHC has been
puzzled from the outset of this case why MHS would
ever argue for lesser legal protections of the children
in its care or seek to operate outside the ADA or the
6

See, Fernandez op cit., 131 et passim.

8
FHA: with $17 billion at its disposal and a mandate
from the MHS founders to do all it can to rescue
children in crisis, MHS should sail far above any
federal disability protection hurdle. The decision
below invites it to walk under.
CONCLUSION
The
decision
below
fundamentally
misapprehends the nature of the chore program at
MHS in a way that diminishes the children in MHS’s
care. That contravenes the wishes of the MHS
founders and denies important federal protections to
children who disproportionately need those
protections. Accordingly, the Petition should be
granted and the decision below reversed.
Respectfully submitted,
WILLIAMSON, FRIEDBERG & JONES, LLC
/S/ Joseph H. Jones, Jr.
JOSEPH H. JONES, JR.
Ten Westwood Road
Pottsville, PA 1790
Tel: 570-622-5933
jjonesjr@wfjlaw.net
Attorneys for Amicus Curiae Protect The Hersheys’
Children, Inc.

